<html>
<title> - TOXIC, FOREVER CHAMICALS: A CALL FOR IMMEDIATE FEDERAL ACTION ON PFAS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                       TOXIC, FOREVER CHAMICALS:
                          A CALL FOR IMMEDIATE
                         FEDERAL ACTION ON PFAS

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON ENVIRONMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2019

                               __________

                           Serial No. 116-72

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


        Available via the World Wide Web: http://www.govinfo.gov
                     http://www.house.oversight.gov
                       http://www.docs.house.gov
                       
                       
                       
                            ______
                          

             U.S. GOVERNMENT PUBLISHING OFFICE 
 38-553 PDF           WASHINGTON : 2020                       
                       
                       
                       
                   COMMITTEE ON OVERSIGHT AND REFORM

            CAROLYN B. MALONEY, New York, Acting Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California                Frank Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
      Britteny Jenkins, Subcommittee on Environment Staff Director
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051

                      Subcommittee on Environment

                   Harley Rouda, California Chairman
Katie Hill, California               James Comer, Kentucky, Ranking 
Rashida Tlaib, Michigan                  Minority Member
Raja Krishnamoorthi, Illinois        Paul A. Gosar, Arizona
Jackie Speier, California            Bob Gibbs, Ohio
Jimmy Gomez, California              Kelly Armstrong, North Dakota
Alexandira Ocasio-Cortez, New York   Fred Keller, Pennsylvania

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on November 19, 2019................................     1

                               Witnesses

Mr. Mark Ruffalo, Actor, Producer and Artist
    Oral statement...............................................     7

Mr. Scott Faber, Senior Vice President of Government Affairs, 
  Environmental Working Group
    Oral statement...............................................     9

Tiger Joyce (minority witness), President, American Tort Reform 
  Association
    Oral statement...............................................    10

Mr. Mark Favors, U.S. Army Veteran, Member, Fountain Valley Clean 
  Water Coalition
    Oral statement...............................................    12

*Written opening statements, and the written statements for 
  witnesses are available at the U.S. House Repository: https://
  docs.house.gov.

                           Index of Documents

The documents listed below are available at: https://
  docs.house.gov.

* British Medical Jorunal article from 2019 that concludedPFAS 
  was not associated with toothdecay: submitted by Rep. Gibbs.

* List of 30 corporations that have employed lobbyist to discuss 
  PFAS policy and legislation; submitted by Rep.Ocasio-Cortez.

* Department of Defense Memorandum; submitted by Rep. Ocasio-
  Cortez.

* Pictures of a press conference outside the U.S. Capitol with 
  Mark Ruffalo and membersof Congress; submitted by Rep. Keller.


                       TOXIC, FOREVER CHAMICALS:


                          A CALL FOR IMMEDIATE


                         FEDERAL ACTION ON PFAS
                              ----------                              


                       Tuesday, November 19, 2019

                   House of Representatives
                        Subcommittee on Environment
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:25 p.m., in 
room 2154, Rayburn House Office Building, Hon. Harley Rouda, 
(chairman of the subcommittee) presiding.
    Present: Representatives Rouda, Wasserman Schultz, Tlaib, 
Khanna, Gomez, Ocasio-Cortez, Comer, Gibbs, and Keller.
    Also present: Representative Kildee.
    Mr. Rouda. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    This subcommittee is continuing its examination and call 
for immediate Federal action on PFAS. I now recognize myself 
for five minutes to give an opening statement.
    Good afternoon. This is the fourth hearing the 
Environmental Subcommittee has held on the contamination of 
air, water, and food with perfluoroalkyl and polyfluoroalkyl 
substances, a class of manmade chemicals referred to as PFAS.
    Our previous hearings have established the scientific facts 
about these chemicals. They do not degrade, earning their 
nickname ``forever chemicals,'' and they are toxic to humans, 
having been linked to serious adverse health outcomes such as 
low fertility birth defects, suppression of the immune system, 
thyroid disease, and cancer.
    We have heard witnesses testify to the pervasiveness of 
PFAS contamination in America's water, air, and food supplies. 
Some of them are here today.
    At our hearing in September we heard about the actions of 
certain corporations that downplayed the scientific research 
linking these dangerous chemicals to serious adverse health 
effects and to conceal this evidence from the American public.
    Today, our goal is to urge this administration to take 
immediate Federal action to regulate and cleanup these 
dangerous chemicals.
    You know, at these hearings we--public officials tend to 
speak perhaps a little too clinically. We say PFAS chemicals 
can cause birth defects and cancer in humans.
    But what we should be saying is this. Because these 
chemicals have been cavalierly dumped by corporations in rivers 
and landfills, they have poisoned pregnant women and 
permanently injured and damaged their children, who will suffer 
severe health problems for the rest of their lives.
    People have lost their spouses, parents, and other loved 
ones. People have been saddled with medical bills they cannot 
afford and that will put them into massive long-term debt, 
sometimes for the rest of their lives.
    We have got people who are just now realizing they have 
been drinking contaminated water for years, who have to pray 
each day that they don't get sick and their families don't get 
sick.
    So even now, we might speak about the PFAS crisis in terms 
that sound impersonal and bureaucratic, like saying we need to 
regulate these chemicals and set maximum contaminant levels.
    What we are really trying to say is that we need government 
to save people's lives by protecting them from dangerous 
chemicals they did not know they were drinking and wouldn't 
have drunk if the truth had not been shrouded by them from 
corporations that knew for decades how toxic these chemicals 
were and are.
    We need the Federal Government to protect people because we 
have seen what happens when it leaves it to corporations. And, 
you know, in what has become an intensely partisan environment 
here in Congress, this is one issue on which the two parties 
really can find agreement.
    The ranking member of this subcommittee to my right, James 
Comer, said at our July 24th hearing on PFAS, quote, ``It is 
bipartisan that we want clean drinking water. It doesn't matter 
if you are a conservative or a liberal or moderate. We all want 
clean drinking water. There is no question about that.''
    But the ranking member knows as well as I do that water 
doesn't stay clean on its own. By taking one look at the 
Environment Working Group's map of congressional districts with 
known PFAS contamination we can see just how true this is.
    Our water is poisoned in Ohio, in Arizona, in North Dakota, 
just to name a few. We, the representatives of the people, have 
to work to protect that water to keep that water safe from 
companies that seek to maximize their profits through 
pollution.
    And yes, that does require regulation. So when it comes 
right down to it, the debate we are having over whether to 
regulate PFAS is a debate about two camps: the American public 
and all of us who want clean water and the companies who have 
made a lot of money by exposing people to toxic substances 
against their will.
    This is a horror story of epic proportions and so it is no 
surprise that it caught the attention of one of our witnesses 
today, Mark Ruffalo.
    In the new ``Dark Waters'' movie he plays the attorney, 
Robert Bilott----
    Mr. Ruffalo. Bilott.
    Mr. Rouda. Bilott. Thank you. Robert Bilott, who himself 
testified before this subcommittee in September. Mr. Bilott 
defended thousands of plaintiffs in Parkersburg, West Virginia, 
against DuPont, a chemical manufacturer that not only 
contaminated the groundwater in Parkersburg but also spent 
decades covering up that they had done so.
    And the horror story does not end there. The drinking water 
supplies on and around military bases have been contaminated by 
these chemicals and haven't yet been cleaned up.
    These men and women answered the call of duty and risked 
their lives for our country, and yet they can't safely take a 
drink of water from their canteen.
    This is a tragedy, plain and simple. Mark Favors, a U.S. 
Army veteran, is here with us today to share his story and 
those of his family members who are suffering the human cost of 
PFAS contamination on and around military bases.
    The Environmental Protection Agency needs to set maximum 
contaminant levels under the Safe Drinking Water Act, not just 
for the two most notorious types of PFAS chemicals, PFOS and 
PFOA, but for PFAS as a class--a class of more than 5,000 
different manmade chemicals.
    And the Department of Defense needs to commit to cleaning 
up contamination around military sites expeditiously and work 
with the urgency this crisis demands to find an alternative to 
the PFAS-containing firefighting foam used in training 
exercises.
    The EPA has announced that it will issue its proposed 
regulatory determinations for PFOS and PFOA by the end of the 
year, and it can't come soon enough.
    But it is imperative that Americans be kept safe from all 
PFAS chemicals. The fact is we don't know the full extent of 
the effects these chemical alternatives to PFOA and PFOS will 
have on humans.
    But the scientific evidence thus far suggests that these 
chemicals are toxic, that they do bioaccumulate in the human 
body just like their predecessors.
    Do we really want to be sitting here 50 years from now 
asking ourselves why we didn't take action on the so-called 
alternatives, the same way we are sitting here in the year 2019 
asking ourselves why we didn't regulate PFAS and PFOA earlier.
    I hope we take the opportunity to learn from our mistakes 
rather than repeat them. We are finished with being hoodwinked 
by corporate interests. We are done being placated, being told 
we are moving forward when we are actually standing still.
    The American people are paying attention and I promise you 
all that I will work relentlessly with my fellow members here 
to ensure that you have the freedom to drink water from your 
faucet and your well without worrying that it will someday give 
you cancer.
    I will work to ensure your safety. The United s should not 
be a place where your water can kill you.
    Before I invite the subcommittee's ranking member, Mr. 
Comer, to give his opening statement, I want to say a few words 
about the conduct we witnessed at our minority--from our 
minority at our last hearing on tailpipe emission rollbacks and 
Federal policy to address climate change.
    You know, it is not always fun being in the minority and 
Republicans are going through a tough time right now being 
forced to defend a deeply unethical president.
    But there is no excuse for trying to shut down a hearing 
that this subcommittee convened in good faith in an effort to 
ensure Americans' right to breathe clean air.
    The minority requested and was granted their own witness 
for that hearing. Yet, neither Mr. Comer nor any of my other 
colleagues in the minority ever came to me or my staff before 
the hearing to broach any concerns.
    Frankly, when my Republican colleague from Arizona made the 
motion to adjourn, I wasn't even sure he was still a member of 
the subcommittee because I can count on two fingers how many 
times he has attended these subcommittee meetings.
    But he did find the time to come and try and shut down a 
hearing on climate change policy and Americans' right to clean 
air.
    Those actions were not in good faith. I certainly hope that 
in the future my Republican colleagues would have the courtesy 
and the decency to come to me beforehand to raise any concerns 
they might have.
    I should also point out when we Democrats were in the 
minority we never once, not once, tried to adjourn one of the 
committee's hearings.
    In a sad way, my Republican colleague's stunt at the last 
hearing represents exactly what is wrong with their party's 
entire approach to addressing the most important environmental 
issue of our time.
    They just ignore the problem, put their heads in the sand, 
and try to shut down any attempt to promote smart policy that 
addresses scientific reality.
    If that is the way my Republican colleagues think the 
government should be run, they should be ashamed, because it is 
not just the members of one political party whose lives are at 
risk.
    If we do not act now to protect the right to clean air and 
clean water, if we don't work to address the existential crisis 
of climate change, then all of our lives are at risk.
    We are the stewards of the public interest. We owe it to 
the American people to tackle the big problems, not waste time 
with cheap stunts.
    And with that, the chair now recognizes the ranking member, 
Mr. Comer of Kentucky, for five minutes for an opening 
statement.
    Mr. Comer. Well, thank you, Chairman Rouda. It is good to 
start off with a good bipartisan tone for this committee.
    We are here today for the subcommittee's fourth hearing on 
this--on the large group of chemicals collectively known as 
PFAS.
    I want to thank the witnesses for their willingness to 
appear before this subcommittee and, hopefully, we can have a 
good productive discussion that will actually lead to 
achievable results in the future.
    As I have said in each of the previous four hearings, 
potential drinking water contamination is frightening for any 
community and it is--there is bipartisan support to have clean 
drinking water.
    It is important to remember that the reason that PFAS 
substances became so predominantly used in the first place is 
they provide strength, durability, and resilience in a broad 
range of applications from nonstick cookware to firefighting 
foams that save lives.
    Why does the medical technology industry care about 
proposed actions related to PFAS? Because the medical devices 
made by these companies for over 50 years have been made with 
fluoropolymers, a PFAS compound.
    Tens of millions of these devices have been used by 
patients without demonstrating any adverse health effects. In 
fact, they have achieved the opposite.
    They have kept patients alive and healthy. As I have told 
you before, Mr. Chairman, I am committed to working with my 
colleagues on solutions that will contain any existing damage 
from legacy PFAS substitutes and reduce the risk for future 
harm.
    But I also that we, as a body, can make responsible 
evidence-based science-driven decisions. It is important to 
note that nearly 5,000 chemical compounds make up the PFAS 
family. Five thousand chemical compounds.
    These compounds have different structures and 
characteristics, which means they also have varying health and 
environmental impacts. Thorough research has only been done on 
a small number of these compounds.
    So we should be careful about taking any sweeping actions 
that could have the unintended consequence of negatively 
impacting a broad segment of the economy, including public 
entities like hospitals and airports.
    Any legislative or regulatory actions we consider should be 
based on solid scientific understanding of the toxicity of 
specific compounds.
    I would also like to note for the record something about 
today's hearing makeup, Mr. Chairman, since you mentioned 
previous hearings.
    During the Oversight Committee hearing last week, one of 
the majority members--one of your party's members--questioned 
the minority witness about her lack of, quote, ``scientific or 
particular expertise in the subject matter whatsoever,'' 
unquote.
    In short, the Democrat member tried to say that the 
minority witness should be ignored. I have heard from several 
of my colleagues today that they found the witness testimony 
compelling and informative.
    But I would like to note for the record that if this is the 
majority's view of witness suitability, it is unclear to me why 
a Hollywood actor with no scientific expertise on PFAS 
chemicals would be called to testify today.
    It appears to me that this fourth hearing on PFAS could be 
viewed as an attempt by committee Democrats to use it to assist 
the promotion of a movie that may include--may include--false 
narratives about PFAS.
    This is similar to the last hearing on PFAS in September, 
which----
    Mr. Khanna. Mr. Chairman, I object to the ad hominem 
attacks on Mr. Ruffalo.
    Mr. Rouda. So noted. Please continue.
    Mr. Comer. This is similar to the last hearing on PFAS in 
September, which featured a plaintiff's attorney in ongoing 
litigation against the chemical industry as well as a paid 
expert witness involving those cases.
    Today, we have the actor who is portraying that same 
plaintiff's attorney testifying.
    Now, I am a firm believer in the broad authority of 
congressional oversight. But I become very concerned when 
Congress uses its investigative tools in ways that can 
interfere with or give the appearance of interfering with 
ongoing litigation.
    I hope the subcommittee will commit to doing its best to 
refrain from interfering or appearing to interfere with ongoing 
litigation as we move forward.
    Today, I would like to spend some time discussing EPA's 
PFAS Action Plan, which the agency released in February of this 
year.
    In it, EPA outlined several short-and long-term actions to 
minimize risk, increase scientific knowledge about the broad 
range of PFAS substances, prevent exposure and cleanup existing 
contamination. That is what our goal should be, in a bipartisan 
manner.
    A few weeks ago the EPA sent two actions from the PFAS 
action plan to the Office of Management and Budget for review. 
The first action would allow the public to provide input on 
adding PFAS to toxic release inventory--toxic chemical list----
    Mr. Rouda. The member's time has expired.
    Mr. Comer. Mr. Chairman, with all due respect, you went 
over a few seconds as well.
    Mr. Rouda. Please wrap up your comments.
    Mr. Comer. The second action would ensure that certain 
persistent long-chain PFAS chemicals cannot be imported into 
the United States without notification review.
    The two actions taken in late September show the continued 
commitment by EPA to implement the PFAS Action Plan.
    Thank you, Mr. Chairman. Again, I would like to welcome the 
witnesses here today.
    Mr. Rouda. Thank you.
    Now I want to welcome our witnesses. We have Mark Ruffalo, 
actor, producer, and activist; we have Scott Faber, senior vice 
president for government affairs, the Environmental Working 
group; Mark Favors, U.S. Army veteran, member of Fountain 
Valley Clean Water Coalition; and Mr. Tiger Joyce, president, 
American Tort Reform Association.
    Please stand. Raise your right hand. I will begin by 
swearing you in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Chorus of ayes.]
    Mr. Rouda. Thank you. Please be seated.
    Let the record show that the witnesses answered in the 
affirmative. The microphones are sensitive so please speak 
directly into them.
    We have had votes called. So I think what we are going to 
do is go through one, maybe two five-minute opening statements 
and then we are going to have to do a short recess.
    Okay. So the floor is yours, Mr. Ruffalo.

     STATEMENT OF MARK RUFFALO, ACTOR, PRODUCER, AND ARTIST

    Mr. Ruffalo. Thank you very much, and I am honored to be 
here today and have the opportunity to testify.
    My name is Mark Ruffalo and I am honored to play the role 
of Rob Bilott in the upcoming film ``Dark Waters.'' You have 
already heard testimony from Rob so you know that Rob has 
dedicated his life to protecting all of us from PFAS.
    What you may not know is that Rob has risked everything, 
including his career and his own health, to uncover one of the 
greatest corporate environmental crimes in history. So he 
should be seen as a true American hero.
    It was Rob who uncovered what this committee has now shared 
with the American people, that by the 1950's, 3M knew that PFAS 
could buildup in our blood; that by the 1960's, DuPont and 3M 
knew that PFAS could be toxic; that by the 1970's, DuPont and 
3M knew that PFAS was, indeed, building up in the blood of all 
of us and harming their own workers; and that by the 1980's, 
DuPont knew that PFAS was contaminating the tap water of nearby 
communities.
    But that is not all. Rob not only discovered that these 
toxic chemicals were building up in our blood; he also sounded 
the alarm, sharing what he found with the EPA and also Rob 
secured the funding through a legal settlement with DuPont to 
undertake the biggest human health study of toxic chemicals 
ever.
    Thanks to Rob, independent experts reviewed the blood work 
and medical records of 70,000 people whose water had been 
poisoned by DuPont.
    That study found a probable link between PFOA and cancer 
and five other serious diseases including reproductive and 
immune system harm.
    Hundreds of subsequent studies have found that PFAS 
chemicals, including replacements for PFAS chemicals, like the 
new GENX, pose many of the same risks.
    Here is what we now know. We know that PFAS are called 
forever chemicals because they buildup in our blood and organs. 
We know that PFAS chemicals have been linked through animal, 
worker, and human studies to serious health problems.
    But, Mr. Chairman, we have done absolutely nothing. We have 
not stopped industrial releases of PFAS into the air and water.
    We have not stopped PFAS from being used in food packaging, 
cookware, cosmetics, and other everyday consumer products. We 
have not stopped the use of PFAS in firefighting foams nor have 
we cleaned up legacy PFAS pollution.
    This is decades. There is still no legal requirement to 
filter PFAS from tap water. So more than a hundred million 
Americans today are likely drinking water contaminated with 
PFAS. Nor is there any legal requirement to clean up the most 
contaminated sites.
    So who is paying for this failure to act? It is the people, 
people like Sandy Wynn-Stelt, whose husband died from liver 
cancer after a nearby tannery poisoned the drinking water with 
PFAS.
    It is people like Bucky Bailey, who is here today, whose 
mom, Sue Bailey, worked at DuPont's Teflon line while she was 
pregnant with him and who was born with numerous birth defects.
    These are real people, guys. It is real people, Mr. 
Chairman - people who live in the frontline communities like 
Oscoda, Michigan. Real people who are paying the price in the 
form of higher health care costs and higher water bills.
    These chemicals don't respect political boundaries, which I 
am so glad we can understand and we agree bipartisan. They are 
found in the blood of people in Oatman, Arizona, and they are 
found in the blood of people in Fargo, Dakota.
    They are found in me. They are found in my kids. They are 
found in every one of you.
    So who should pay? The companies. The companies that made 
billions upon billions of dollars producing chemicals they knew 
were building up in our blood and knew--and they knew they were 
toxic but failed to tell anyone.
    Failed to tell their workers, failed to tell their 
neighbors, failed to tell the regulators, which keeps us from 
making a choice about how we are going to live our lives.
    These companies are making us sick, Mr. Chairman, and we 
are paying--we are paying to have to heal ourselves.
    I understand that today's hearing is focused on PFAS. But 
the problem is not limited to PFAS. In America, it falls to us, 
the ordinary people, to prove that these chemicals are toxic 
before the chemical is regulated by our government. That is 
simply backward.
    It is the companies that make billions of dollars producing 
these companies, not us--not the rest of us--who should be 
required to prove their products are safe before them bring 
them to the market. Cautionary principle--it is used throughout 
the world today and it keeps communities from being sick.
    Mr. Chairman, it is time to regulate PFAS chemicals. It is 
time to end industrial releases of PFAS into the air, into the 
water.
    It is time to end needless uses of PFAS in everyday 
products like food packaging or cosmetics. It is time to 
finally filter PFAS out of our drinking water and it is time to 
clean up the legacy of PFAS contamination, especially at our 
military bases. This goes far outside medical uses.
    So let me close by thanking you, Mr. Chairman, for now 
holding four hearings on PFAS contamination and the crisis that 
we are all facing, and for elevating the stories of real people 
like Sandy Wynn and Bucky Bailey and real-life heroes like Rob 
Bilott.
    Thank you.
    Mr. Rouda. Thank you.
    The chair is going to recognize a recess now so that we can 
go vote. Let us plan on being back in good form 10 minutes 
after the last vote.
    Thank you.
    [Recess.]
    Mr. Rouda. Well, like elementary school, recess is over. 
The committee is back in order here.
    I think we left off with Mr. Ruffalo. So, Mr. Faber, you 
now have five minutes for opening testimony.

 STATEMENT OF SCOTT FABER, SENIOR VICE PRESIDENT OF GOVERNMENT 
              AFFAIRS, ENVIRONMENTAL WORKING GROUP

    Mr. Faber. Great. Thank you, Mr. Chairman, and members of 
the committee.
    My name is Scott Faber. I am testifying today on behalf of 
the Environmental Working Group, a national environmental 
health organization that has fought to address the PFAS 
contamination crisis for more than two decades.
    I know you have many questions so I will just quickly 
summarize my testimony.
    To date, PFAS has been detected in the groundwater or tap 
water of more than 1,300 communities including 14 communities 
in Ohio, 20 communities in Pennsylvania.
    Just a few weeks ago, EWG testing revealed 10 different 
PFAS in the drinking water of Louisville, Kentucky, and as Mr. 
Ruffalo said, it is probably the case that more than a hundred 
million Americans are drinking tap water or eating food 
contaminated with PFAS. Nearly all of us have PFAS in our 
blood, including our babies.
    Because PFAS have been linked to cancer and harm to our 
reproductive and immune systems, we must take immediate steps 
to reduce ongoing PFAS releases and to clean up legacy PFAS 
contamination.
    Despite the risks, the well-documented risks of PFAS, 
hundreds of manufacturers--hundreds--can still release 
unlimited amounts of PFAS into the air and water and have no 
duty to tell anyone.
    Despite the risks, PFAS can still be used in food packaging 
and migrate into our food. Despite the risks posed by PFAS, 
biosolids contaminated with PFAS can still be applied to farm 
fields and buildup in our food crops, animal feed, and, 
ultimately, in all of us.
    Despite all of these risks, PFAS can still be used in 
firefighting foams that seep into our drinking water supplies. 
Despite the risks posed by PFAS, badly contaminated sites still 
do not have to be cleaned up, including contaminated sites on 
our near our military installations.
    Thankfully, Mr. Chairman, this Congress is finally treating 
PFAS contamination with the urgency it deserves. More than 40 
bills and amendments, many of which are bipartisan, have been 
introduced to reduce ongoing PFAS releases and cleanup legacy 
PFAS contamination.
    Earlier this year, the House passed the National Defense 
Authorization Act that would quickly end DOD's use of 
fluorinated firefighting foams and PFAS in food packaging, 
would regulate industrial PFAS releases into our water, and 
expand efforts to monitor for PFAS.
    The NDAA also designates PFAS as hazardous substances, 
which will kick start the cleanup process at the most 
contaminated sites and ensure that polluters pay their fair 
share of cleanup cost.
    This morning, the House Energy and Commerce Committee began 
to consider 17 PFAS bills including bills to regulate PFAS 
discharges into the air, require more PFAS reporting by 
industry, and to increase funding for water utilities to filter 
PFAS from our drinking water.
    No American, as you said, Mr. Chairman, should ever have to 
wonder if their water is safe to drink or if their food is safe 
to eat.
    But after decades of inaction, we may have finally begun to 
reverse the tide of PFAS pollution.
    Thank you, Mr. Chairman.
    Mr. Rouda. Thank you, and you recognize some of the past 
efforts of Members of Congress.
    One of them is here with us today, Representative Kildee, 
and without objection, he shall be permitted to join the 
subcommittee on the dais and be recognized for questioning of 
the witnesses. Glad to have you here.
    And with that, the chair now recognizes Mr. Joyce for five 
minutes for his opening statement.

  STATEMENT OF SHERMAN JOYCE, PRESIDENT, AMERICAN TORT REFORM 
                          ASSOCIATION

    Mr. Joyce. Chairman Rouda, Ranking Member Comer, members of 
the subcommittee, thank you for allowing me to be here on 
behalf of the American Tort Reform Association.
    I would like to make it clear at the outset that I am here 
as an advocate for lawsuit reform to discuss the overall impact 
of excessive litigation on legal businesses as well as its 
impact on the laudable goal of environmental remediation.
    To be clear, I am not here as a scientist or to express a 
position on environmental policy or regulation.
    The American Tort Reform Association believes that civil 
litigation should not be used to punish businesses today for 
making products many decades ago when they have substantial 
public benefits, particularly those that were developed or 
demanded by the government.
    So-called PFAS substances are precisely that type of 
product as they--and they are the subject of a fast-growing 
number of lawsuits brought by individuals as class actions as 
well as cases brought by state and local governments.
    Since the 1950's, thousands of substances that constitute 
PFAS have been made--have made possible important breakthroughs 
like surgical gowns and drapes that protect patients and health 
care providers against airborne pathogens.
    They have allowed us to have implanted medical devices and 
improve protective gear for firefighters, chemical workers and 
military personnel.
    It has also been the--you have heard about this a little 
today--the basis for firefighting foams. In fact, the U.S. Navy 
developed such a foam containing PFAS in collaboration with 3M 
to do just this in response to tragic loss of life of military 
personnel on Navy ships during the Vietnam War.
    The Navy is now far better prepared to deal with such a 
situation and saves lives as a result. The Navy continues to 
consider this product to be, and this is their term, mission 
critical.
    In the case of PFAS, ATRA believes that the science has 
gotten out in front of the litigation that we have seen. 
Improved technology has allowed greater detection of the 
presence of PFAS which, in our view, has been the catalyst for 
more and more litigation involving these products.
    One legal commentator stated earlier this year in the ABA 
Journal, quote, ``We may be just seeing the tip of the PFAS 
iceberg, at least as far as litigation goes.''
    This is despite the fact that the Agency for Toxic 
Substances and Disease Registry stated last year, and I quote, 
``The available human studies have identified some potential 
targets of toxicity. However, cause and effect relationships 
have not been established for any of the effects and the 
effects have not been consistently found in all studies,'' end 
quote.
    Thus, the premier agency responsible for evaluating health 
and safety risks for products such as PFAS have not concluded 
that this broad category of products injures the public.
    Yet, litigation moves forward as if the science does 
support that legal, and I emphasize legal, causation.
    Environmental protection has been a major public policy 
topic for the Congress and the executive branch appropriately 
for decades in response to the impacts of our rapidly changing 
economy and way of life.
    That said, it has to be acknowledged that that worthy goal 
has been significantly hampered by litigation over the years.
    Carol Browner stated in 1994, as President Clinton's EPA 
administrator, quote, ``A lot of time is taken up with 
companies suing each other over how much they owe to clean up a 
particular site,'' and that continues to be the case.
    Members of the subcommittee should know that additional 
legal issues have developed with regard to Superfund and 
CERCLA.
    States can look to impose remediation plans to clean up a 
Superfund site even if it conflicts with the EPA-directed 
cleanup. Atlantic Richfield, which agreed to do that in an EPA-
approved cleanup of a copper smelting facility in Montana, is 
asking the U.S. Supreme Court to preempt the plan imposed by 
the state. That case will be heard in two weeks.
    Mr. Chairman and members of the subcommittee, lawsuits, 
liability, statutes, and regulations should not get out in 
front of science.
    My understanding is that the EPA is developing and 
implementing an action plan to address PFAS in order to protect 
public health.
    This includes many facets which have been discussed here. 
The American Tort Reform Association has no position on the 
scope of this process, how it should proceed, and, ultimately, 
how it should conclude.
    But we do believe that the key is for law, regulation, and 
litigation involving PFAS to be based on scientific consensus.
    In conclusion, we believe it is wrong for a business to be 
subjected to extensive liability simply because a microscopic 
level of a company's product can be found in the air, water, or 
bodies absent--this is the key--a clear scientific 
determination of causation.
    It is counterproductive to impose liability on 
manufacturers that develop products that provide substantial 
public benefits based on fear--that it, while understandable, 
is not scientifically substantiated.
    I thank you.
    Mr. Rouda. Thank you, Mr. Joyce.
    In the previous PFAS hearing we have had, we have had the 
opportunity to hear individual stories. It is a complex issue 
with a lot of comments about the chemicals and the reaction and 
the process.
    But when we have the personal stories, such as Bucky Bailey 
in a previous hearing and the personal stories of Mr. Favors as 
well as his family and community, it is a great opportunity for 
all of us to take note and have clear understanding of the deep 
ramifications of the impact these chemicals have on us.
    And with that, Mr. Favors, you are now recognized for five 
minutes of opening testimony.

 STATEMENT OF MARK FAVORS, U.S. ARMY VETERAN, MEMBER, FOUNTAIN 
                  VALLEY CLEAN WATER COALITION

    Mr. Favors. Thank you. I want to thank Chairman Rouda and 
Ranking Member----
    Mr. Rouda. Turn on the microphone, if you would, please.
    Thank you.
    Mr. Favors. I want to thank Chairman Rouda and Ranking 
Member James Comer and this committee for this hearing and 
allowing me to testify.
    I was born and raised in El Paso County, Colorado, around a 
large loving family, many of whom are U.S. military veterans 
like myself.
    However, we are struggling to obtain justice and 
accountability for our family members and their neighbors dead 
or suffering from cancer and other diseases after firefighting 
foam containing toxic PFAS from nearby Peterson Air Force Base 
contaminated the drinking water and groundwater for decades.
    This contamination began in early 1970's in the drinking 
water and remained until 2016, all during that time unknown to 
the public.
    In addition to these toxic chemicals causing contamination 
by seeping underground off base to nearby civilian water 
sources, Peterson Air Force Base officials have now admitted 
that they actually dumped these toxic PFAS chemicals into our 
community's drinking water source several times a year from 
1990 until 2016.
    Again, Colonel Schiess from Peterson Air Force Base in 2016 
admitted that they actually discharged knowingly these 
chemicals into our drinking water source several times a year 
from 1990 until 2016.
    This resulted in not only extremely high levels of PFAS in 
the drinking water far exceeding the EPA's nonenforceable 
health advisory, but also in the blood of residents 10 times 
higher than the national average.
    Some of our PFAS drinking water levels were more than a 
hundred times higher than the EPA's nonenforceable advisory, 
according to a Pentagon report to Congress.
    Subsequently, in my family we have had 16 family members 
diagnosed with cancer who resided for a significant time within 
these toxic PFAS drinking water-contaminated residential areas 
of Widefield, Security, Fountain, and Stratmoor. At least four 
of these family members have died of kidney cancer, including 
my father in 2017, you know, which has been linked to PFAS 
contamination by scientists and the U.S. courts.
    These cancer deaths permanently separated mothers, fathers, 
and grandparents from their children and grandchildren. A few 
years ago, a teenage cousin of ours required a kidney 
transplant and the doctors ruled it out that it couldn't have 
been genetic. His mother lived in a contaminated area since she 
was 10 years old.
    And because these kidney cancer deaths occurred on both 
sides of my family including one person, a Vietnam veteran 
decorated for combat who married into the family, it cannot be 
explained by genetics.
    Also, none of my family living outside of this area--the 
contaminated area in Colorado Springs--has ever been diagnosed 
with kidney cancer or failure.
    Included among my affected family members are at least 
seven U.S. military veterans who themselves, along with their 
spouses and children, were being poisoned unknowingly by 
these--by these toxic PFAS chemicals from Peterson Air Force 
Base while they were on active duty and/or deployed to fight 
for our country in Iraq.
    Indeed, there is a picture of two of my family members 
while they were deployed in the Iraq War together. Yet, 
meanwhile at that same time, Peterson Air Force Base was 
dumping toxic PFAS chemicals into the drinking water of their 
spouses and children.
    We also have several family members who, as military 
veterans, are buried in Fort Logan National Cemetery along with 
their spouses.
    Yet, not buried there due to lethal wounds they received 
when they served in our military during World War II, the 
Korean War, and Vietnam, but instead, dead from cancer after 
having their drinking water contaminated with toxic PFAS 
chemicals for decades here in the United States without their 
knowledge nor consent.
    So imagine surviving World War II, the Korean, or Vietnam 
War as a U.S. military service member fighting for our country 
only to come home safe. But then years after unknowingly 
drinking toxic PFAS chemicals put in there by our government be 
diagnosed with deadly cancer.
    And in the case of Leonard M. Haynes, not only are you 
stricken with deadly cancer but so are your wife, child, and 
grandchild, a grandchild who, at the age of 39, was buried last 
year, dead from cancer, leaving behind two daughters and a 
husband.
    And we also just buried my aunt Ivory, pictured here, in 
Fort Logan National Cemetery last month. My cousin, Princess, 
died of kidney cancer at 55, who was raised in the area.
    The Colorado Health Department, they did an investigation 
and found that lung, bladder, and kidney cancer rates were 
significantly higher than expected in the contaminated areas 
versus the noncontaminated areas.
    But then they chose not to investigate, stopped the 
investigation, along with the EPA because they said they didn't 
have the money and the DOD has been in charge of the 
investigation since then and has given us information on a need 
to know basis and has denied us to be a resident advisory 
board.
    And also now they have admitted that the Air Force 
Academy's contamination from PFAS is just as large as Peterson. 
You know, they never offered any blood tests nor has the state 
of Colorado set legally enforceable statewide PFAS drinking 
water levels.
    And when the Colorado Health Department tried to induce a 
site-specific standard--a groundwater standard for PFAS, the 
Pentagon said it would not apply to the military because they 
have sovereign legal immunity.
    And the Air Force knew about these warnings for years from 
their own scientists. In fact, Fort Carson, which is in our 
same county, 10 minutes away from Peterson Air Force Base, a 
DOD agency, the U.S. Army Corps of Engineers, told them in 1991 
to stop using PFAS-laden firefighting foam and to replace it 
with something nonhazardous.
    Meanwhile, a 10-minute drive away, another DOD facility 
decided it was a great idea to dump those same toxic chemicals 
into the drinking water. And also in 1997, an Army study told 
the soldiers to treat the firefighting foam as something toxic 
to the environment.
    So if the Defense Department via the Army didn't have to 
wait for EPA guidance in 1991 and 1997, why do they have to 
wait--why are they not doing anything based on EPA guidance 
now?
    So here we have two U.S. military bases in the same county 
10 minutes apart. A DOD agency tells one ban the PFAS. They do 
it. The other one says, you know what, we will just dump it 
into the drinking water source.
    I want Congress to investigate that and, you know, and 
figure it out. Right now I have used up all my time. But what I 
want to say is, you know, my mother worked for Peterson for 40 
years serving from Colorado Springs. Serving in the military is 
part of our culture.
    We will continue to serve in the military. My niece just 
called me last week saying she wants to join the Navy. So, you 
know, we need to get this fixed so we can protect the people, 
you know, as they serve and I hope and I wish that you could be 
bipartisan and just, you know, have the courage to do 
something, just an investigation, because most of these men in 
my family, did I tell you they went to Vietnam?
    They joined in the 1950's. There wasn't even a Civil Rights 
Act or a Voting Rights Act but they signed up to go fight for 
this country overseas doing a leap of faith.
    And now we are just asking you just to have the same 
courage that they had and try to, you know, help these families 
and help us out.
    Thank you.
    Mr. Rouda. Thank you, Mr. Favors, and thank you for your 
story.
    The chair now recognizes Congresswoman Tlaib for five 
minutes of questioning.
    Ms. Tlaib. Thank you, Mr. Chair.
    Mr. Favors, I just want you to know I believe you. You 
know, sometimes you need to feel believed and there is many of 
my colleagues we believe you that it is killing your family 
members.
    Corporate disease--corporate greed is a disease in our 
country and it is killing our people, and I don't know how many 
of you all know--I know Mr. Joyce doesn't believe in science, 
but I know--did you all know that 99 percent of Americans have 
toxic PFAS chemicals in their blood? Ninety-nine percent of 
Americans.
    In the 1950's, 3M scientists knew that PFAS buildup would 
get built up in blood. In the 1960's, DuPont and 3M knew that 
these chemicals were toxic. By the 1980's these companies knew 
that PFAS exposure caused birth defects in animals like rats 
and further outcomes--health outcomes in humans.
    Internal company documents have been made public that 
confirm that they all knew. They all knew, and what I am more 
and more frustrated with is that it is like this so what 
approach.
    You know, there is a sense of urgency, I think, with many 
of my colleagues from Michigan and, of course, our chairman who 
has been leading this fight from day one. But there is this 
attitude of so what.
    So I want to ask you Mr. Favors, if there is anything--if 
there is one thing that you can tell every single American 
across the country about PFAS, what do you want them to know?
    Mr. Favors. That, you know, after 69,000 people gave blood 
samples in West Virginia it was linked to cancer and diseases 
and, you know, it is no--like, I tell people my grandmother 
decided to move to this area.
    She only has one sister. She was dead 11 years later. My 
grandmother's only sister is 98 years old and lives alone, you 
know.
    So, you know, we just keep seeing and I have asked for a 
congressional investigation. You know, I don't even want to 
jump to conclusions but we can't even get a transparent 
comprehensive investigation like what happened with Flint or 
these other crises or what is happening at the border, you 
know.
    My family members are being separated from their children 
based on government actions. So I just want the same vigor and 
the same help that--you know, that other issues are getting.
    Ms. Tlaib. You know, and I appreciate that.
    Mr. Ruffalo and Mr. Faber, what more can we do in Congress 
to shine the light of decades of cover up and misinformation? 
And that is my worry is this constant misinformation but also 
how do we combat this whole, like, so what attitude?
    Because I want you to know, Mr. Favors, this is our fourth 
hearing. We have had investigative hearings. I actually look to 
my colleagues because I am one of the new ones here.
    After the investigative hearings we will followup on 
letters. We will do the things that we need to do, based on 
what we heard in those investigative hearings.
    But then we have these kind of political tactics that are 
happening and, again, corporate interest, corporate greed is 
tainting our democracy in a way that it drives away some of my 
colleagues to have the political courage to do something. But 
going to all of you----
    Mr. Favors. Maybe try subpoenas.
    Ms. Tlaib. Yes. Thank you.
    So to you all, how do you combat that? How do we combat 
that as Congress of this so what attitude and this 
misinformation out there?
    Mr. Ruffalo. If I knew that, the world would be a different 
place.
    I just want to comment. Mr. Comer, I know you care about 
this because you said you did, and I guess--I guess it is 
really like an opening of our hearts to our brothers and 
sisters in the world, you know.
    When we--when we decided to make this country we gave up 
our freedoms and we gave up our tax dollars in order for--and 
by giving those things up we made an agreement with this 
country that they would take care of us people.
    And I think part of the disease that we are seeing in the 
world--in America today is a feeling that somehow that covenant 
that we made has been broken and that we have become slavish to 
corporate interests and economic interests and we have lost our 
connection to our fellow man and women and children.
    And I know you guys have families. Like, I know that we 
all--we all relate to each other on these levels and I know--I 
believe you when you say that you care about this.
    But how can we sit here and listen to these stories from 
Bucky Bailey or from Mark Favors and not be moved to take 
action?
    And, you know, you can do this by, basically, stopping the 
things that we come into contact with--our drinking water, 
cosmetics--those things that we use every day--food wrappers, 
our clothing.
    Even firefighters. We shouldn't be telling firefighters the 
only--listen, guys, you are going to have to get cancer. It is 
just part of your job. There should be no job in America that 
that is a disclaimer. And it is just really, like--it is just--
it is just dropping our slavishness to this economic system.
    I mean, it is so out of balance and there are so many sick 
people. We have the science. We did the studies. We know, you 
know.
    We can't sit here and pretend like this didn't happen or 
that this new EPA Blue Ribbon Panel, which they had already did 
one in 2001--like, we don't need to know any more about this to 
make the changes that we know in our hearts we have to make.
    If you know that you are poisoning your kid, you are not 
going to--you are not going to give them that anymore. I don't 
care what side of the aisle you stand on.
    I would say that we need a kind of--a realigning with what 
it is to be a human being and think more about each other and 
less about ourselves or less about corporate interests in this 
country.
    And then when we do that a lot of this stuff will take care 
of itself.
    Ms. Tlaib. I couldn't agree more, and you took up most of 
my time but that is okay.
    Mr. Ruffalo. Oh, I am so sorry.
    Ms. Tlaib. It was completely worth it. But I would just 
leave with all of you, my 14-year-old son, he says, Mom, what 
about peopleism? Do peopleism. Put people before profits.
    So I will leave you with all of that. But no, it was 
completely worth it, Mr. Ruffalo. I think what you said was 
exactly what we need to do in Congress.
    Thank you very much.
    Mr. Rouda. Thank you.
    The chair now recognizes Congressman Gibbs for five minutes 
of questioning.
    Mr. Gibbs. Thank you. And, of course, we all want to make 
sure we have clean air and clean water and protect our 
citizens.
    We also need to recognize that the chemical industry has 
done a lot to advance life and prolong life so we never forget 
that.
    Mr. Favors, you know, it is tragic to hear your testimony. 
One thing that stuck out when you--when there was a little 
clarification you talked about the Air Force base dumped--
dumped this stuff.
    If that is the actual case, I believe they were--they were 
breaking the law when they--if they actually were dumping and 
not going through, you know, a process.
    They were just making discharges of contaminated water. 
That would have already broke the--that should be illegal and 
that ought to be looked at. So I will just leave it there.
    Mr. Favors. The issue is they said they had written 
permission from the Colorado Springs Utility Department.
    The Colorado Springs Utility Department said, I have no 
idea. That is not true.
    They have no written records ever giving the Air Force 
permission, which is one of the reasons I have been, for the 
last couple of years, coming to Congress to do an investigation 
to find out----
    Mr. Gibbs. Okay. Well, I am--I am going to go on to another 
witness.
    Mr. Faber, I know some organizations, including yours, 
argue that PFAS--the 5,000 known substances--should be 
regulated as a class instead of individually.
    My first question is, are all the PFAS chemicals the same 
structurally?
    Mr. Faber. Thank you for the--thank you for the question.
    This class of chemicals, PFAS, has something that is--all 
of these chemicals have one thing in common, which is the 
carbon fluorine bond.
    That is what the--the nature of these manmade chemicals 
that causes them to buildup in our blood and, ultimately, 
contribute to the diseases we have heard about.
    And I know that it has been the subject of a lot of 
conversations.
    Mr. Gibbs. Because PFOS, P-F-O-S----
    Mr. Faber. Yes.
    Mr. Gibbs [continuing]. has actually been discontinued in 
this country because we know that is a problem, right, and that 
is--is that the key one that is used in the foam?
    Mr. Faber. So the--we know a lot about PFOA and PFOS, P-F-
O-S, because we have reviewed the medical records and tested 
the blood of 70,000 people who live in the mid-Ohio River 
Valley, as you know, and had an independent panel of some of 
the Nation's most respected epidemiologists look at all of that 
data and draw the conclusion that PFOA is a probable cause of 
kidney cancer, as we heard about, testicular cancer and other 
diseases.
    Mr. Gibbs. But are--but are chemical--like, DuPont and 3M, 
didn't they voluntarily quit making that product, the PFOA?
    Mr. Faber. That is--yes, thank you for the question.
    So they--those companies phased out the use of PFOA and 
PFOS but began to use very, very similar replacement chemicals 
like GENX that we now know, because EPA and CDC have told us, 
present many of the same health risks, including cancer.
    So I think the challenge here is we are playing a game of 
chemical whack-a-mole where we focus on one of these chemicals 
and we say--we convince industry--we don't regulate it.
    We regulate convince industry to phaseout that particular 
chemical--in this case, PFOA--and instead we replace it with 
another chemical that may pose and in this case does pose many 
of the same----
    Mr. Gibbs. Well, that is all up to speculation. I got to 
move on so I am going to run out of time.
    Mr. Faber. Well, sir, that is--that is based on what EPA 
said in----
    Mr. Gibbs. Okay. Mr. Ruffalo, I watched your movie trailer 
this morning and there was a young girl riding a bicycle, and 
it was evident that her teeth were either blackened or rotten 
or whatever. Is the--that image, was that supposed to intend 
that PFAS exposure causes tooth decay?
    Mr. Ruffalo. I am not an expert on this but I will tell you 
what I know about it. Because of the fluoride it can, in mass 
quantities, begin to stain teeth.
    Mr. Gibbs. Well, it depends on the question of mass 
quantities. But I do have from a peer-reviewed British Medical 
Journal earlier this year concluded that the PFAS were not 
associated with prevalence with tooth decay.
    And Mr. Chairman, I ask unanimous consent to insert this 
into the record.
    Mr. Rouda. Without objection, so moved.
    Mr. Gibbs. Do you know if there is anything else in that 
movie that is coming out Friday that might play more on 
emotions to sensationalize things and maybe not be accurate? 
Because you just said you are not sure that it does have--tooth 
decay is an accurate----
    Mr. Ruffalo. It is not tooth decay, sir. It is tooth 
staining. I didn't say tooth decay.
    Mr. Gibbs. Okay.
    Mr. Ruffalo. And that is the truth. And it is true that 
high levels of fluoride do stain the teeth black and there were 
many children that had that staining in that community.
    Mr. Gibbs. Okay.
    Mr. Ruffalo. So that is true. Okay. As far as--oh, did you 
want me to finish?
    Mr. Gibbs. I got 12 seconds so go ahead and use it.
    Mr. Ruffalo. What you see in this movie except for what we 
had to leave out, which was things like the DOJ getting 
involved in this process and dropping the case just out of the 
blue for criminal action and on behalf of DuPont, the things 
that we have in the movie are the things that happened.
    And yes, they are emotional because we are talking about 
human lives here. We are talking about people getting sick, 
people dying. So yes, those are emotional things. But those 
things all happened. Everything that is in that movie happened.
    Mr. Gibbs. I think it is interesting that the movie is 
coming out Friday and we are having this hearing today. So I 
kind of wonder what is going on here. But I think it is a 
little bit inappropriate with the----
    Mr. Ruffalo. Well, we could talk about that. I would be 
willing to talk about that.
    Mr. Rouda. Member's time has expired.
    The chair recognizes Congresswoman Ocasio-Cortez for five 
minutes of questioning.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.
    I think it is quite funny how the matters of people's lives 
are being diminished by such horrible allegations. But what I 
also find laughable is the idea that something like a movie can 
cause us to hold a congressional hearing because I want to get 
to the bottom of something.
    I have pulled a list of about 30 corporations that have 
employed registered lobbyists this year to advocate on their 
behalf before Congress to discuss--to discuss PFAS policy and 
legislation, and I would like to seek unanimous consent to 
submit the list of corporations to the record.
    Mr. Rouda. Without objection, so moved.
    Ms. Ocasio-Cortez. Some of these corporations include oil 
companies like Shell, Exxon Mobil, and Phillips 66. 3M this 
year alone in 2019 has spent $2.5 million on outside lobbying 
alone. That doesn't even include inside lobbying.
    We have DuPont, which has spent a large amount of money on 
inside lobbying. Exxon Mobil has spent $5.1 million of 
lobbying. Those are the folks who are not at this table.
    So when we make accusations, I can--I can say, along with 
this document, that there are people spending far more money to 
purchase our public policy than a movie trailer right now. So I 
can assure the opposition that that is the case.
    One thing that I am concerned with, and Mr. Chairman, I 
would like to also submit a second memorandum where--and enter 
it into the record where a Department of Defense memorandum 
from just last month where the department appears to be 
disregarding safety recommendations from the EPA regarding PFAS 
groundwater contamination.
    Mr. Rouda. Without objection, so moved.
    Ms. Ocasio-Cortez. Mr. Favors, I am confused by this 
because we now have the Department of Defense saying that we 
don't need to worry about this to the EPA.
    Can you shed any light as to why that is?
    Mr. Favors. Why they say they don't need to worry about it?
    Ms. Ocasio-Cortez. Yes.
    Mr. Favors. I am dumbfounded because, like, you know, here 
is an official Air Force document from 1989 where the Air Force 
says clearly other chemicals which could conceivably cause 
acute toxicity problems would be fuels, oil spills, and a 
triple F firefighting foam.
    So there has been tons of research where they have done it. 
I mean, ironically, the U.S. Army Corps of Engineers, who told 
the Army to replace it in 1991, it is the same agency that the 
Air Force is using now to investigate their PFAS.
    Ms. Ocasio-Cortez. So we are saying--so the Army has said 
this is dangerous. The Air Force, in the past, has said this is 
dangerous?
    Mr. Favors. U.S. Army Corps of Engineers and, yet, Air 
Force scientists and Air Force, you know, personnel have said 
yes, it is dangerous. I have documents----
    Ms. Ocasio-Cortez. Yet, we just have a memo from just last 
month the Department of Defense saying this is not.
    Mr. Favors. That is why we need subpoenas issued for this 
and we need a comprehensive investigation from Congress, you 
know, like what happened with Flint and other big tragedies.
    Ms. Ocasio-Cortez. I concur. I concur with you, Mr. Favors.
    Mr. Ruffalo, I think one of the things that you alluded to 
earlier in this story is that at the core this is a story about 
corruption and that corruption has--this level of political 
corruption has, essentially, poisoned people's blood.
    Can you tell me a little bit about some--you alluded to 
there being the--you know, an activist life being ruined or 
impacted by this or the fact that there were mysterious 
shutdowns of this investigation.
    Can you tell a few--tell us a little bit about some of 
those anecdotes and strange occurrences?
    Mr. Ruffalo. So for something like this to happen at the 
level it did, there either had to be extreme malfeasance on 
the--on the corporate level, which we see from the story, but 
there were things that seemed to happen that this got lost in 
the EPA, it got lost in the DOJ, and you have to wonder what 
political forces were working at that time to make this story 
disappear.
    I mean, this is--I am a film maker. I tell stories. This is 
a significant story. This is--this is millions of people being 
contaminated with a company that knew it was happening, even 
before they brought the actual product onto the market and we 
don't know anything about it. We are sitting here today 
discovering this.
    Ms. Ocasio-Cortez. And you said that when Mr.--when Mr. 
Bilott approached the EPA with the findings on PFAS it was 
DuPont's attorneys that attempted to stop him with a gag order.
    Is that correct?
    Mr. Ruffalo. That is correct.
    Ms. Ocasio-Cortez. Thank you very much. I yield my time to 
the chair.
    Mr. Rouda. Thank you.
    The chair now recognizes Mr. Keller--Congressman Keller for 
five minutes of questioning.
    Mr. Keller. Thank you, Mr. Chairman.
    Mr. Favors, thank you for your service to our country. It 
is very much appreciated.
    Mr. Faber, I am glad to notice that you mentioned in your 
testimony that there is language addressing this issue included 
in part of the NDAA. So it is not like we haven't done 
anything. We are trying to get things done. So I appreciate you 
recognizing that.
    And Mr. Chairman, I commend you on recognizing this is a 
complex issue. So thank you for doing that.
    And with that, I would just like to cover a few things 
here. Last week, the majority of this committee held a hearing 
on abortion where the only pro-life witness was attacked for 
not having, quote, ``scientific or particular expertise in this 
subject matter whatsoever,'' end quote.
    This week, the majority is once again trying to 
inappropriately use this subcommittee to sway public opinion 
and rush to try and regulate an industry where more research is 
required, research that should be done by scientists and 
subject matter experts.
    But knowing no depths to how far they will go to show off 
their hypocrisy or help their allies in Hollywood, the majority 
has called as their star witness an actor. That is right, an 
actor.
    An actor with no medical, no scientific or research 
expertise except for a few scenes as Dr. Bruce Banner. An actor 
that has a record of anti-business activism.
    More importantly, to Mr. Ruffalo and maybe Democratic 
allies, an actor with a movie remembering--excuse me, a movie 
premiering this week that attacks private sector job creators 
with loose facts and hyped-up emotional rhetoric.
    And I would like to submit for the record today's press 
pictures of today's press conference, for the record, that show 
that while this is--while this is happening the movie is being 
promoted right outside the Capitol with Members of Congress 
there.
    Mr. Rouda. Without objection, so moved.
    Mr. Keller. I am not sure if Mr. Ruffalo is looking for an 
Academy Award for his performance in the upcoming movie or for 
his performance in this hearing.
    Mr. Chairman, there is bipartisan legislation out there 
that can actually start to get to the heart of this problem 
based upon scientific data we have.
    Language addressing this issue is included as part of the 
Senate-approved National Defense Authorization Act and was 
unanimously reported out of the Environment and Public Works 
Committee.
    This approach would use a number of EPA authorities such as 
the Safe Drinking Water Act to allow for better coordination 
between Federal agencies on the issue and would set drinking 
water standards for PFOS and PFOA, the PFAS chemicals that EPA 
has the most data on.
    Mr. Chairman, maybe we should spend more time--more of our 
time working toward a real solution, getting real answers, and 
not talking to attention-grabbing headliners.
    I yield back.
    Mr. Rouda. Thank you.
    The chair now recognizes Ms. Wasserman Schultz--
Congresswoman Wasserman Schultz--for five minutes of 
questioning.
    Ms. Wasserman-Schultz. Thank you. Thank you, Mr. Chairman.
    Mr. Favors, thank you so much for taking the time to 
testify and thank you for your service, of course.
    Your testimony really reminds us all that this is an issue 
of life and death. Congress and the administration cannot lose 
sight of the fact that real people, particularly our service 
members and veterans, are suffering.
    I want to ask you, and I have a couple other things I want 
to cover so if you can try to answer succinctly. When did you 
and your family first learn that your water on Peterson Air 
Force Base may have been contaminated with PFAS chemicals?
    And military bases, obviously, form the heart of several 
communities across the Nation. Could you describe the reaction 
that your family and other people in the community had when 
they heard about this contamination?
    Mr. Favors. I didn't--it was 2016 where they were told to 
stop using their tap water. I live in New York now. I didn't 
know about this until 2017 when I went to visit my mother and 
CBS This Morning had did--was doing a little news report on 
Peterson Air Force Base and the drinking water, and let us just 
say I was very disappointed in hearing that my grandmother--my 
grandparents had been poisoned.
    Ms. Wasserman-Schultz. Right. I can only imagine. It is, 
obviously--I am sure you wouldn't be surprised to learn that 
this isn't an uncommon experience. The PFOA and PFOS level 
detected at MacDill Air Force Base in my home state of Florida 
in Tampa is 523,710 parts per trillion. The PFOA and PFOS level 
detected at the Naval Air Station in Jacksonville in my home 
state is 1,397,120 parts per trillion.
    The PFOA and PFOS level detected at Patrick Air Force Base 
in Brevard County in my home state of Florida is 4,338,000 
parts per trillion.
    And these are just a handful of the military installations 
in Florida alone. So I want everyone present and watching this 
hearing now to hear this fact.
    The risk level found by CDC's Agency for Toxic Substances 
and Disease Registry is 11 parts per trillion for PFOA and for 
PFOS it is seven parts per trillion. Seven. Above that and you 
start running a real risk of public health problems.
    For the record, 4.3 million is greater than seven. So, Mr. 
Favors, it seems to me that we have a national water crisis on 
our hands here and our service members have been unfairly and 
cruelly put on the front lines of this chemical crisis.
    Do members of your community believe that DOD's response to 
the water crisis has been adequate?
    Mr. Favors. No. Most of them do not because we have been 
denied a RAB, a citizen advisory board, and they have been in 
control of the investigation.
    The EPA stopped investigating and the state and it is a 
need to know basis. I mean, we have gotten emails from Germany 
where people on bases in Germany have been told to get out of 
their housing because of PFAS.
    But they won't give them any specific numbers. They are 
just, like, you know, don't--you know, we have fliers and 
everything. So no, it is not just in our community but it is, 
you know, people connected to our community who are stationed 
around the world.
    Ms. Wasserman-Schultz. So, basically, they have been 
blocking your access to information about----
    Mr. Favors. Yes.
    Ms. Wasserman-Schultz [continuing]. how this happened and--
--
    Mr. Favors. A lot.
    Ms. Wasserman-Schultz. Well, not surprising. I am sure it 
won't surprise you to learn that in the last PFAS hearing that 
we had in the subcommittee I sat on this dais and asked 
representatives of DuPont and 3M if they had any plans to 
compensate service members by the chemicals they manufactured 
and I had to wrench an answer out of them and they finally, 
sheepishly, said no, that they didn't. I told them, and I will 
reiterate here, that I don't know how they sleep at night.
    Mr. Favors, what is your reaction to hearing that these 
polluters continue to deny responsibility and refuse to help 
people like you and your family?
    Mr. Favors. You know, it is difficult because the period of 
contamination of the Air Force is from 1970 to 2016.
    Per Colorado's strict two-year statute of limitation, a lot 
of my grandparents and family members that fought in World War 
II and in Vietnam because they died before 2014 they are not 
able to sue anyway.
    So this isn't about--and plus, there is not enough money in 
the U.S. Treasury to compensate for poisoning my grandmother. 
So, you know, it is--we are just trying to get justice and 
accountability. But everybody wants to pass the buck so that is 
why we are here.
    Ms. Wasserman-Schultz. Well, as a cancer survivor myself, I 
certainly can personally understand how devastating that is.
    When you, as I have, faced your own mortality and stare it 
right in the face, you get a little bit more motivated than I 
might have already been about environmental justice and making 
sure that the actions of government or the inaction of 
government isn't poisoning our citizens and then allowing 
corporate America to get away with it.
    So I chair a subcommittee in Appropriations on Military 
Construction and Veterans Affairs and I can assure you that we 
are going to continue to make sure that we hold these 
companies' feet to the fire.
    We have added $60 million above the president's budget 
request for this cleanup and we will continue to fight by your 
side.
    Thank you. I yield back the balance of my time.
    Mr. Rouda. Thank you.
    The chair now recognizes Mr. Comer for five minutes of 
questioning.
    Mr. Comer. Thank you, Mr. Chairman, and again, I want to 
reiterate the fact that I think we all support clean water and 
trying to get sensible solution to this problem.
    I want to reiterate what Mr. Keller said. There are 
efforts--bipartisan efforts to try to fix this problem.
    And, Mr. Favors, I wholeheartedly support if any families 
have been poisoned intentionally by corporate America that they 
get compensated for that, and I want to make sure that if they 
get compensated they get what they are due and not have 
scenarios where big corporate law firm take an overwhelming cut 
of the money.
    With that, I want to ask Mr. Joyce let us talk about these 
lawsuits.
    Have you seen an increasing trend of state attorneys 
general contracting with outside law firms to conduct 
environmental litigation against corporations on states' 
behalf?
    Mr. Joyce. Yes, we have. I think that that kind of 
litigation is become more common in a lot of areas and I would 
just extend that to beyond the states to individual 
communities, sometimes counties and cities.
    Mr. Comer. On what basis are these outside law firms paid 
typically? Is it a contingency fee basis or how are they paid?
    Mr. Joyce. I think, overall, that is the typical process.
    Mr. Comer. In your experience, have state attorneys general 
been forthcoming and transparent about the relationship with 
outside law firms in these matters?
    Mr. Joyce. Well, I think there is a lot is known about it 
and I think organizations like ours sometimes will go on the 
record and ask them to provide, and oftentimes they have to 
indicate if the--if a law firm enters into a contract with a 
state it has to be done publicly.
    Mr. Comer. Good. According to your testimony, the American 
Tort Reform Association released a report called ``For Profit 
or For the Public Interest,'' which documents how local 
governments are increasingly accepting invitations from private 
plaintiffs' law firm to bring lawsuits.
    Can you describe why you feel this is a dangerous path to 
go down?
    Mr. Joyce. Well, I think our perspective is really kind of 
in multiple parts. First off is--and this is not to disparage 
anybody that is involved, but whether it is you in Congress, 
members of the executive branch, or state attorneys general and 
others, your responsibility is to--is to protect the public, 
serve the public interest.
    Lawyers operating on a contingency fee basis--and again, 
this is not an indictment of them--but they have a profit 
motive and I think those can be fundamentally incompatible.
    Any litigation brought by a governmental entity should 
serve the public interest, not the private interests of 
lawyers. We think that that is important.
    Mr. Comer. Right.
    Has there been a rise in the number of PFAS lawsuits 
brought by plaintiffs' attorneys in recent years?
    Mr. Joyce. We are seeing more and more of it, and it is a 
growing area. I think we highlighted that in the report that 
you mentioned.
    Mr. Comer. In your opening statement you stated it is 
troubling when the civil justice system is used today to punish 
businesses for making products decades ago that had substantial 
public benefits and, in some cases, were developed or demanded 
by the government itself.
    PFAS chemicals have helped in the past many people's lives, 
correct?
    Mr. Joyce. I think so, yes.
    Mr. Comer. And the U.S. Navy worked with 3M to develop 
firefighting foams containing PFAS to help save lives. Is that 
correct?
    Mr. Joyce. Yes, that is my understanding.
    Mr. Comer. And I have said this in the--in testimony before 
in the three previous hearings that my firefighters union in 
Kentucky said that, you know, very important that they have the 
tools--when they were aware of the PFAS testimony and 
everything--that they had the tools necessary to put out--to 
put out fires and to save their lives.
    So, you know, this is something that has been used in the 
past to do good things. This is something that the government 
required companies to do.
    So many of these businesses could be in a tough spot then, 
especially if the government required them to use these 
chemicals. Is that--is that correct?
    Mr. Joyce. Well, I think, again, it was done in 
collaboration with the government and I think with respect to 
the Navy, the particular instance that you mentioned--we 
highlighted this--back, you know, in the--in the 1960's during 
the Vietnam War damage to Navy ships when they caught on fire 
were often tragic and there was no ability to put out the 
fires, and now I think that has been significantly enhanced.
    Mr. Comer. And, Mr. Chairman, again, I am happy that we are 
having these hearings. I think that there can be a path forward 
to help solve the problem to clean the waters to ensure that at 
the very least that this--that there is no more toxic chemicals 
that end up in our--in our drinking water.
    And I yield.
    Mr. Rouda. Thank you.
    The chair recognizes Congressman Kildee for five minutes of 
questioning.
    Mr. Kildee. Thank you, Mr. Chairman, for holding this 
hearing and for your leadership on this issue, and to the 
witnesses, thank you for your testimony.
    I just need to sort of get something off my chest. Let us 
not be afraid of a movie. We should be afraid of the story that 
that movie tells.
    So I know it is fun and maybe sport for some on the other 
side to want to attack anyone who is in the business of telling 
these important stories.
    But I will tell you one thing. As a guy who represents a 
community that was poisoned and overlooked, I will take help 
from anyone who will step up and help tell this story to the 
American people.
    And when I needed help in Flint, Michigan, a lot of my 
friends here helped. Mark Ruffalo showed up in Flint, Michigan, 
to help bring attention to that crisis.
    So Mark, keep doing what you are doing because the way we 
change policy is by informing people of what policy that is 
currently in place is doing to them, and right now the policy 
that is in place in this country is poisoning people and it is 
our responsibility to do something about it.
    So don't be afraid of a movie and don't judge the movie by 
just watching the trailer, by the way.
    So get that off my chest.
    But it is important to note--one of the comments that was 
made from the gentleman on the other side who is no longer in 
the room is that we shouldn't say we are not doing anything 
because we have all these provisions in the NDAA, and then 
after a comma, but we shouldn't regulate this until the science 
tells us.
    The language we have in the NDAA allows us to regulate it. 
So, Mr. Faber, I wonder if you could just address what it would 
mean specifically to list PFAS under CERCLA and what that 
process looks like.
    Is it a ban? How does it actually work?
    Mr. Faber. Thank you for the question. This is a really 
important question because there is a mistaken assumption that 
designating PFAS as a hazardous substance would be a de facto 
ban.
    That is simply not true. CERCLA is a cleanup statute. It 
does not regulate chemicals. When we regulate chemicals, we 
regulate chemicals under TSCA, which we updated three years.
    When we regulate medical devices, we regulate them under 
the Food, Drug, and Cosmetics Act. We do not regulate them 
under CERCLA. CERCLA only regulates releases of toxic chemicals 
and only applies when a site is so contaminated that it has to 
be cleaned up.
    So that is a really--and I will just add one quick point on 
that, which is that there are hundreds and hundreds of 
chemicals that have been designated as hazardous substances 
under CERCLA. Seven hundred and sixty-one of those have been 
designated as a hazardous substance.
    Do you know how many of those are still being used in 
commerce today? Five hundred and ninety-nine. They are used in 
all sorts of things. Three hundred and thirty-nine of them are 
produced at very high volumes.
    So to your point, Mr. Kildee, a hazardous substance 
designation is not a ban. It simply requires the cleanup of the 
most contaminated sites and it ensures that the polluters who 
knowingly contributed to this worldwide contamination pay their 
fair share of the cleanup costs.
    Mr. Kildee. Thank you.
    If you could also comment. There is this discussion, and I 
have to point out, Mr. Joyce, you echoed something we heard in 
a previous hearing that the science is incomplete in order to 
come to any conclusion.
    I don't know when there is enough science. But just looking 
at the C8 study, and I see Mr. Bilott and Bucky here--Bucky 
Bailey, one of the heroes of the story in Parkersburg--at least 
at the time and maybe still, the most exhaustive human health 
study ever conducted, there is pretty solid science that says 
this is bad stuff and we ought to protect people from it. Isn't 
that right, Mr. Faber?
    Mr. Faber. That is right. Again, we reviewed the medical 
records and blood work of 70,000 people. Imagine what it would 
take to get 70,000 people to donate their blood so that 
independent scientists could assess whether there was, indeed, 
a link between PFOA and cancer and other serious health 
effects.
    But that is not all. There have been hundreds of additional 
peer-reviewed studies done by EPA, CDC, by others. But the most 
important source of information about the threats posed by 
these chemicals comes from the industry itself.
    The reason we know that these chemicals cause cancer and 
other serious health problems is because we have seen it in on 
DuPont and 3M letterhead. We know because they knew.
    We know because they knew in the 1950's that this stuff 
built up in our blood, and in the 1960's that it was toxic, and 
then in the 1970's it was poisoning their own workers, and in 
the 1980's it was poisoning their neighbors. And they never 
told anyone.
    They didn't tell their workers. They didn't tell their 
communities and, most of all, they didn't tell the EPA. And 
then when they did tell EPA, EPA did nothing.
    EPA has known since 2001 and they have done nothing and 
that is why it is so important, as Mr. Keller said, that 
Congress has finally, in 2019, almost 20 years after EPA first 
found out about this, finally saying we need to reduce releases 
of PFAS, we need to end the use of PFAS in food packaging, and 
we need to clean up this mess.
    We need to--we need to tell DOD, as Mr. Favors said, that 
when we find high levels of contamination that it is their 
responsibility to clean up the mess they have created over the 
decades.
    Mr. Kildee. Mr. Chair, if I could just close. I know I have 
gone over my time.
    But there is a question before Congress right now on this, 
and so I was glad to hear my colleague on the other side 
mention the NDAA provisions.
    There is an organized effort right now to have those 
provisions taken out of the NDAA in its final form. We worked 
really hard in the House, in a bipartisan way very often, to 
get those provisions included.
    This is a chance to get real protection to the president's 
desk signed and put into law and not just a get well card to 
people who are facing poisoning or communities that are facing 
poisoning, but something tangible.
    So for those of you that want to see something done, the 
moment is right now. Speak up.
    I yield back.
    Mr. Rouda. Thank you.
    The chair now recognizes myself for questioning.
    You know, I look at this. I think there is three things we 
have got to do.
    One, stop dumping. Two, cleanup where we have dumped. And 
three, do testing on these Next Gen chemicals.
    And Mr. Favors, you--in your opening testimony, I know you 
weren't able to get through all of it but you aptly said, 
quote, ``If I wanted to sell PFAS as a medicine, I would have 
to wait for several years of testing to prove it is safe before 
applying to the FDA. However, I can immediately discharge these 
chemicals into our environment,'' and let me turn to that 
because I know there was some questioning up here as well.
    Mr. Faber, if you could elaborate on what limitations, if 
any, are on the dumping of these chemicals.
    Mr. Faber. That is right. Thank you for the question.
    Right now, there is no limitation whatsoever under the 
Clean Water Act with regards to discharges of PFAS into waters.
    Per Mr. Gibbs' question to Mr. Favors about whether or not 
it is illegal to simply dump or discharge PFAS into a river, 
the answer is yes.
    Right now, municipal--sorry, industrial polluters can 
release as much PFAS into the water and into the air as they 
want because EPA has not used the authority Congress has given 
it to set limits on those releases into the air and into the 
water.
    That is why it is so important for Congress to set a 
deadline for EPA to take action.
    Mr. Rouda. Right. So they can dump, they can release, and 
they don't have to clean up unless there is a successful 
lawsuit against them to do such.
    And third, they have introduced up to 5,000 Next Gen 
chemical compounds that have not had proper testing as to the 
impact it has on Americans and our children.
    Is that correct?
    Mr. Faber. That is right, and many of those replacement 
chemicals were approved for use in commerce even though there 
were studies showing links to very serious health effects, 
including tumors in animal studies and other serious concerns.
    Mr. Rouda. And, Mr. Ruffalo, my apologies for the 
questioning of your legitimate reasons for being here. I note 
that you are an author, a podcast host, a commentator that has 
worked very hard on behalf of these issues and I am kind of 
curious as to why this issue is so important to you.
    Mr. Ruffalo. So I am an activist as well and I have been 
working in the water space for years whether it was in Flint, 
Michigan, or it was in Pennsylvania and the fracking issue when 
we were being told that water wasn't being contaminated by 
fracking, and then we came to find out it was.
    I would rather be doing other things. You know, I would 
rather be with my family. But I do see an imbalance in what is 
happening to people in the ground and what we are addressing in 
the media and what we are addressing here in these sacred 
halls.
    And I have been gifted with this outsized media coverage--
celebrity--and I can decide, well, I can do that to do car 
commercials and make a lot more money. I could do that--I could 
use that for any number of things to ingratiate and enrich 
myself.
    I feel like from this blessing that I have been given that 
I want to give people the voice that don't have a voice, and 
that is really what I am doing here today.
    That is why I wanted to make this movie. Nobody goes into 
an independent movie thinking you are going to make a killing. 
You will be lucky if you make a living.
    Nobody comes--I mean, nobody--these people that came here 
today they left work to come here because these issues are real 
to them.
    Mr. Rouda. Thank you for doing this because, to borrow from 
one of your previous films, it is important to shine a 
spotlight on these issues.
    Mr. Ruffalo. Yes.
    Mr. Rouda. And the fact that you have a podium and a 
microphone and a platform to be able to do that is important 
for this incredibly difficult issue affecting so many 
Americans.
    I also want to talk a little bit about Congresswoman 
Ocasio-Cortez's observations about the greed of corporate 
America. And yes, corporate America does provide important 
products and services to our quality of life.
    But let us keep in mind that 3M settled for $875 million 
with the state of Minnesota after voluntarily stopping the 
production of PFAS chemicals.
    They did not do this gratuitously. They did this because 
they recognized the extensive liability associated with the 
continued manufacturing and dumping of those chemicals into our 
environment and settled, again, with just one state for $875 
million.
    And the reason that they have so many lobbyists and give so 
many campaign contributions to so many people that operate here 
on the Hill is because they want to maintain as little 
liability as possible and it is our job to make sure we hold 
them accountable.
    With that, my time has expired. Before we close this 
hearing, I would like to take the opportunity to give each one 
of the witnesses, if there is anything--last comments you would 
like to make, if you could keep them brief.
    So Mr. Ruffalo, we will start with you.
    Mr. Ruffalo. Well, I appreciate being here, and even though 
I took some licks I am honored to be here.
    I appreciate this--what is happening. I do appreciate what 
Mr. Comer is saying about this bipartisan effort and the NDAA 
and I want to see that happen and it would be a travesty if 
that doesn't happen.
    And so I am honored that I could come here today on behalf 
of these people. I am honored to be sitting here with somebody 
like Bucky Bailey and Mark Favors, and I am going to keep doing 
this as a service to my country.
    So thank you.
    Mr. Rouda. Thank you, Mr. Ruffalo.
    And Mr. Faber, thank you too for your service. I meant to 
point out the study that you had shared with me recently 
regarding California, that 40 percent of its municipal water 
districts are showing contaminant levels above the EPA 
guidelines and I recognize that Ken Cook is sitting behind you 
as well and I appreciate the efforts of both of you in keeping 
a strong focus on this.
    The floor is yours.
    Mr. Faber. I will just add that no one wants PFAS in their 
drinking water. No one volunteered to have PFAS in their 
drinking water or their food, no one in Louisville, where EWG 
just found 10 different PFAS in their drinking water.
    So everyone agrees we ought to clean it up and, in 
particular, everyone agrees we shouldn't make the problem 
bigger by discharging even more PFAS into the air and water.
    Unfortunately, EPA hasn't used the authorities you have 
already given them to do so. EPA hasn't chosen to regulate PFAS 
under the Clean Water Act, under the Clean Air Act. EPA hasn't 
chosen to designate PFAS as hazardous substances under CERCLA.
    And until we do those things, until we force EPA to do 
those things we will continue to discharge even more PFAS into 
the air and water.
    We will continue to tell communities in Colorado that the 
DOD does not have to clean up legacy PFAS contamination.
    So and the last thing I will just say is I think we all 
agree we don't want to make this problem bigger and that we 
should begin to clean it up.
    But the other thing I think we--ultimately, the hazardous 
substance designation fight in the NDAA is about who pays.
    Should it be--if we simply say we are going to take it out 
of the water, then it is just all of us who are going to pay in 
our water bills.
    So the real question is whether or not the companies that 
knowingly polluted all of these rivers--rivers in Kentucky 
where there are very high levels of PFAS in northern Kentucky, 
rivers in Michigan, rivers all across the country--whether it 
should just be all of us who have to help pay for those costs 
or whether it should be the companies who should have to pay 
their fair share, and that is really the question Congress will 
answer in the next few days.
    Mr. Rouda. Thank you, Mr. Faber.
    Mr. Joyce?
    Mr. Joyce. Mr. Chairman, thank you, and thank you again to 
the members of the subcommittee.
    You know, I would simply say that public health and 
protecting the environment are the responsibility of the 
Congress and the agencies that you fund and authorize and 
direct to do those--do that important work.
    My point in being here today was simply to talk about the 
litigation in this area. But as far as whatever should be done 
according to what is best to serve the interests of the public, 
my organization, I would suspect, overwhelmingly people would 
agree that that should be done and we should protect Mr. Favors 
and those who serve our country. It should protect all of us. 
It should be reasonable. It should be science based.
    I am here simply to talk about the aspect with the 
litigation and making sure that litigation, regulation, all of 
them, are based on science--the best science, the best 
judgment, and that those who are in the best position to 
protect the public and the environment are doing that work and 
working to support the American people.
    Thank you.
    Mr. Rouda. Thank you.
    Mr. Favors?
    Mr. Favors. I want to thank you and I hope that this 
committee takes seriously what seems like a bipartisan olive 
branch from Mr. Comer and Mr. Gibbs where we need to get to the 
bottom of what these discharges that the Air Force did for 30 
years, authorized or not.
    And I think this is a perfect opportunity just to answer 
that question, to show bipartisan, start, you know, sending 
letters and getting to the bottom of that and just--you know, 
just to say, you know, this is real to our family.
    You can go to Fort Logan grave locator. You can find these 
people. They are there. They are buried. And just to go back to 
the human touch.
    I just want to read a couple of sentences from my cousin's 
obituary and where it says, you know, ``Princess volunteered 
her time, treasures, talents to many organizations throughout 
her lifetime. Wherever she found herself, she stood out in 
crowds. Matthew 5:14, 'You are the light of the world.'
    Princess nurtured her spiritual needs at various churches 
until she could no longer attend due to declining health. She 
was very grateful and blessed for the opportunity to reaffirm 
and accept Jesus Christ as her Lord and Savior.
    Sunset came on Wednesday, July 31st, 2013, at her home. 
Princess fell asleep in Jesus' arms with her loving mother, 
aunt, sons, brothers, friends at hers side.''
    I just want to know--the Air Force volunteered this 
information. It wasn't like I was sending them a bunch of 
Freedom of Information requests. We were minding our own 
business and they said, look, this is what we have done.
    Now we need some accountability and justice.
    Mr. Rouda. Thank you, Mr. Favors.
    And thank you to all of our witnesses including Mr. Bilott 
and Mr. Bailey, who have testified here previously.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for the response.
    I ask your witnesses to please respond as promptly as you 
are able.
    This hearing is adjourned. Thank you.
    [Whereupon, at 4:23 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
